App. 1
IN THE DISTRICT COURT OF APPEALS OF THE
STATE OF FLORIDA FOURTH DISTRICT, 110
SOUTH TAMARIND AVENUE, WEST PALM
BEACH, FL 33401
June 20, 2019
Case No.: 4D18-2368
L.T. No.: CACE 14006978
GAREY NEHRKE

v. WELLS FARGO

BANK, N.A.
Appellant/Petitioner(s)

Appellee/Respondent(s)

BY ORDER OF THE COURT:
ORDERED that the appellant’s May 29, 2019 “mo­
tion for rehearing and/or certification or alternative re­
quest for written opinion” is denied. Further,
ORDERED that the appellant’s June 18, 2019 “mo­
tion to strike Wells Fargo’s erroneous response” is de­
nied.
Served:
cc: Tricia Julie Duthiers
Aldridge Pite, Lip
kr

LONN WEISSBLUM, Clerk
Fourth District Court of Appeal

Adam Matthew Topel
Garey Nehrke

App. 2

DISTRICT COURT OF APPEALS OF THE STATE OF FLORIDA
FOURTH DISTRICT
GAREY R. NEHRKE and MARGARET NEHRKE
Appellants,
v.
WELLS FARGO BANK and
LEISUREVILLE COMMUNITY ASSOCIATION, INC.,
Appellees.
No. 4D18-2368
[May 9, 2019]
Appeal from the Circuit Court for the Seventeenth Judicial Circuit,
Broward County; Barry J. Stone, Senior Judge; L.T. Case No.
CACE14006978.
Garey Nehrke, Pompano Beach, pro se
Tricia J. Duthiers of Liebler Gonzalez & Portuondo, Miami, for appel­
lee Wells Fargo.
PER CURIAM.

Affirmed.
Warner, Forst and Kuntz, J.J., concur.

Not final until disposition of timely filed motion for rehearing

App. 3

IN THE CIRCUIT COURT OF THE SEVENTEENTH
JUDICIAL CIRCUIT
IN AND FOR BROWARD COUNTY, FLORIDA
CASE NO.: CACE14006978
WELLS FARGO BANK, N.A.,
Plaintiff,
VS.
GAREY R. NEHRKE; MARGARET T.
NEHRKE; LEISUREVILLE COMMUNITY
ASSOCIATION INC.,
Defendant)(s).
FINAL JUDGEMENT
THIS ACTION was heard before the Court at Non-Jury
Trial on July 3, 2018. On the evidence presented,
IT IS ADJUDGED THAT:
1. Plaintiff, WELLS FARGO BANK, N.A., whose address is Post
Office Box 14506, Des Moines, LA 50328, is due:
Principal
$99,875.13
Interest (accrued at a variable rate)
$21,372.62
A daily variable per diem will accrue on the principal in
accordance with the variable rate as set forth in the note***
Per Diem Interest at $ per day from to
Pre Acceleration Late Charges
$153.93
Taxes
$2,851.01
Attorney’s fees
$2,250.00
$6,205.00
Additional fees
Trial fees
$2,100.00

App. 4
Finding as to reasonable number of hours (14 hours)
Finding as to reasonable hourly rate ($ 150/hour)
1113-750926B CACE14006978
Attorney’s fees total
$10,555.00
Court costs (Title/Lien Search/ Clerk’s Filing Fee, Service)
$2,610.28
Full Title Report
$250.00
Complaint Filing
$906.00
Florida eFiling Service Fee $3.00
Complaint - Additional Cost $12.50
per Defendant
Complaint - Issue Summons $70.00
$745.80
Service of Process
$75.00
Title Report Update
Title Report Update
$75.00
$90.00
Death Certificate
$20.00
Skiptrace Limited
$20.00
Skiptrace Limited
Service of Process
$75.00
$15.00
FL eRecording Fee
First Class Mail
$0.46
$0.46
First Class Mail
First Class Mail
$0.46
$0.46
First Class Mail
$0.46
First Class Mail
First Class Mail
$0.67
First Class Mail
$0.46
$2.68
First Class Mail
First Class Mail
$0.46
Court Reporters
$125.00
Court Reporters
$120.00
First Class Mail
$0.47
First Class Mail
$0.47
$0.47
First Class Mail

App. 5
$0.00
LESS: Escrow Balance
$0.00
LESS: Suspense Balance
1113-750926B
CACE14006978
ymrH-i-2?
GRAND TOTAL
°l T'
That shall bear interest at the rate of 5.97% a yeJl. y
2. Plaintiff holds a lien for the total sum superior to all
claims or estates of Defendant(s),
GAREY R. NEHRKE; MARGARET T. NEHRKE; LEISUREVILLE COMMUNITY ASSOCIATION INC., on the
following described property in Broward County, Florida
and described as:
LOT 33, IN BLOCK 9, OF LEISUREVILLE FOURTH
SECTION, ACCORDING TO THE PLAT THEREOF, AS
RECORDEDIN PLAT BOOK 65, PAGE 49, OF THE
PUBLIC RECORDS OF BROWARD COUNTY,
FLORIDA, TOGETHER WITH AN UNDIVIDED ONEONE
HUNDRED
NINETEENTH
(1/119™)
FRACTIONAL INTEREST IN PARCEL C, AS
DESCRIBED ON SAID PLAT, AND RESERVING A
PERPETUAL NON-EXCLUSIVE EASEMENT FOR
INGRESS AND EGRESS AND UTILITY PURPOSES.
Property Address: 2920 NORTHWEST 2nd AVENUE,
POMPANO BEACH, FL 33064
3. If the total sum with interest at the rate described in
Paragraph 1 and all costs accrued subsequent to the
Judgement are not paid, the Clerk of this Court shall sell
the property at public sale on the
dayof
.20]<<r.
to the highest bidder for cash, except as prescribed in par­
agraph 4, at the courthouse located at 201 Southeast 6th
Street, Suite 230, Fort Lauderdale, FL 33301 in Broward

App. 6

4.

5.

6.

7.

County, Florida, in accordance with section 45.031, Flor­
ida Statutes, using the following method:
• At the Broward Online, www.broward.realforeclose.com beginning at 10:00 AM on theprescribed date
1113-750926B CACE14006978
Plaintiff shall advance all subsequent costs of this action
and shall be reimbursed for them by the Clerk if Plaintiff
is not the purchaser of the property for sale, provided how­
ever, that the purchaser of the property for sale shall be
responsible for the documentary stamps payable on the
Certificate of Title. If Plaintiff is the purchaser, the Clerk
shall credit plaintiffs bid with the total sum with interest
and costs accruing subsequent to this judgement, or such
part of it, as is necessary to pay the bid in full.
On fifing the Certificate of Title, the Clerk shall distribute
the proceeds of the sale, so far as they are sufficient, by
paying: first, all of the Plaintiffs costs; second, documenttary stamps affixed to the Certificate; third, Plaintiffs at­
torney’s fees; forth, the total sum due to plaintiff, less the
item paid, plus interest at the rate prescribed in Para­
graph 1 from this date to the date of the sale; and by re­
taining any remaining amount pending the further order
of this Court.
If applicable, Plaintiff, its successors or assigns, is entitled
to safe harbor under F.S. 720 or 718, respectfully, and as
such is only responsible to pay 1% of the subject mortgage
or one (1) year of regular periodic assessments, at the time
Certificate of Title is issued vesting title to Plaintiff, its
successors or assigns. Plaintiff, including its successors
and assigns, is not responsible for interest, late fees, col­
lection costs or attorney’s fees incurred prior to the issu­
ance of the certificate of title.
On fifing of the Certificate of Sale, Defendant(s) and all
persons claiming under or against Defendant(s) since the
fifing of the notice of Lis Pendens shall be foreclosed of all
estate or claim in property, except as to claims or rights

App. 7
under chapter 718 or chapter 720, Florida Statues, if any.
Upon the filing of the Certificate of Title, the person
named on the Certificate of Title shall be let into posses­
sion of the property. If any Defendant remains in posses­
sion of the property, the clerk shall without further order
of the Court issue forthwith a Writ of Possession upon re­
quest of the person named on the Certificate of Title.
8. The Plaintiff may assign the Judgement and credit
bid by the filing of an assignment prior to the issu­
ance of the Certificate of Title without further order
of the Court.
9. Jurisdiction of this action is retained to enter fur­
ther orders that are proper includins. without limi­
tation. a deficiency iudsement. and all orders relatine to supplemental proceedings to address any
omitted parties who may possess an interest in the
property. Jurisdiction of this action is further re­
tained to allow Plaintiff to file oost-iudsement mo­
tions seekine a determination on the amounts of assessments due to any Associations under S718.116
and $720.3085. Fla. Stat.
IF THIS PROPERTY IS SOLD AT PUBLIC AUCTION.
THERE MAY BE ADDITIONAL MONEY FROM THE
SALE AFTER PAYMENT OF PERSONS WHO ARE EN­
TITLED TO BE PAID FROM THE SALE PROCEEDS
PURSUANT TO THIS FINAL JUDGEMENT.
IF YOU ARE SUBORDINATE LIENHOLDER CLAIM­
ING A RIGHT TO FUNDS REMAINING AFTER THE
SALE. YOU MUST FILE A CLAIM WITH THE CLERK

1113-750926B
CACE14006978

